U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                PUBLIC
               RELEASE


      NATIONAL OCEANIC AND
ATMOSPHERIC ADMINISTRATION
       Internal Controls Over Southeastern
        Fisheries Science Center Bankcard
              Purchases Need Improvement
         Audit Report No. ATL-11860-0-0001/March 2000




                 Office of Audits, Atlanta Regional Office
March 17, 2000

MEMORANDUM FOR:               Penelope Dalton
                              Assistant Administrator
                              National Marine Fisheries Service
                              National Oceanic and Atmospheric Administration


FROM:                         Johnnie E. Frazier

SUBJECT:                      Internal Controls Over Southeastern Fisheries Science
                               Center Bankcard Purchases Need Improvement
                              Audit Report No. ATL-11860-0-0001

The Office of Inspector General has completed an audit of bankcard transactions at the National
Marine Fisheries Service’s Southeastern Fisheries Science Center at Miami for the12-month
period ended September 1998 to determine whether the purchases were in compliance with
applicable Federal Acquisition Regulation and Commerce Acquisition Manual requirements.
By using the bankcard, the Southeastern Fisheries Science Center has reduced the administrative
burden and cost associated with small purchases and enhanced its ability to fulfill its mission.
However, we found deficiencies in internal control practices, which we believe can be prevented
by cardholder training and stronger oversight from cognizant agency officials.

In response to the draft report, NOAA agreed with our findings and recommendations but
requested clarifying instructions on how to implement the recommendation to ensure the security
of bankcards when cardholders are in the field. We appreciate NOAA’s positive response to the
report. We recognize that cardholders in the field present a special situation but believe that the
agency can develop a practical procedure for those cardholders that meets the intent of the
Commerce Acquisition Manual. This could include keeping the bankcard in a wallet or purse
providing the cardholder maintains control. NOAA’s response to the draft audit report,
excluding attachment, is included as Attachment 1 to this report.

Please provide your audit action plan addressing the recommendations within 60 calendar days,
in accordance with Department Administrative Order 213-5. The plan should be in the format
specified in Exhibit 7 of the DAO. Should you have any questions regarding the preparation of
the audit action plan, please call me on 202-482-4661, or contact Larry Gross, Deputy Assistant
Inspector General for Regional Audits on 202-482-1934 or William F. Bedwell, Jr., Regional
Inspector General for Audits, Atlanta Regional Office, on 404-730-2780.

All correspondence should refer to the audit report number given above. We appreciate the
cooperation and courtesies extended by the NOAA staff during our audit.
U.S. Department of Commerce                                        Audit Report ATL-11860-0-0001
Office of Inspector General                                                          March 2000

INTRODUCTION

In 1986, several agencies, including the Department of Commerce, conducted a pilot project to
evaluate the usage of bankcards. The project was successful in identifying opportunities for
reducing procurement administrative costs. In 1989, the bankcard was made available
governmentwide through a contract administered by the General Services Administration. The
objectives of the Purchase Card Program were to (1) reduce procurement administrative costs
and improve cash management by expediting and simplifying small purchases, and (2) improve
internal controls to eliminate the fraud and abuse present in other small purchase methods.

Bankcard use was facilitated by the Federal Acquisition Streamlining Act of 1994 and Executive
Order 12931, which eliminated some requirements for purchases of $2,500 or less, known as
“micro-purchases,” and encouraged agencies to move from procurement offices to program
offices the authority to make simple purchases. The General Accounting Office1 found that the
use of bankcards has skyrocketed, and “using the purchase card has helped government agencies
achieve administrative savings and efficiencies, absorb some of the impact of staffing cuts, and
improve their abilities to fulfill their missions.” In FY 1995, bankcards were used
governmentwide to make about 4 million purchases totaling over $1.6 billion.

While use of the bankcard has been encouraged by the Federal Acquisition Streamlining Act,
officials from the National Oceanic and Atmospheric Administration’s National Marine Fisheries
Services (NMFS) must ensure that bankcard usage complies with Federal Acquisition
Regulation (FAR) and Commerce Acquisition Manual requirements. The Department’s Office
of Acquisition Management is responsible for overseeing the management of the Purchase Card
Program within Commerce and, in turn, has delegated that authority to the Heads of Contracting
Offices (HCOs). The NMFS HCO further delegated purchasing authority to local approving
officials and individual cardholders. HCOs, approving officials, and cardholders all have the
responsibility to ensure that the Purchase Card Program is properly administered.

PURPOSE AND SCOPE OF AUDIT

We conducted the audit to determine whether NMFS’s Southeastern Fisheries Science Center
was utilizing its bankcards in accordance with FAR, Part 13, “Simplified Acquisition
Procedures,” and the Commerce Acquisition Manual, Part 13, “Commerce Purchase Card
Procedures.”

Our audit covered the 12-month period ended September 1998. During this period, the Center
had 56 bankcard holders; however, only 46 cardholders used their card. Furthermore, we chose
to audit the Miami and Panama City offices because of the large number of cardholders and the
high total dollar value of the bankcard transactions at each location.


       1
           GAO report number GAO/NSIAD-96-138, Acquisition Reform, August 1996.


                                                 2
U.S. Department of Commerce                                         Audit Report ATL-11860-0-0001
Office of Inspector General                                                           March 2000

Our selection process began with the selection of all cardholders with purchases for fiscal year
1998 totaling at least $4,000. This resulted in the selection of 14 cardholders, 10 from Miami and
4 from Panama City. For the 14 cardholders, we stratified their single purchases into three levels
and sampled the results as follows: (1) $2,500 and above were tested at 100 percent;
 (2) $1,000 but less than $2,500 were scientifically sampled at 25 percent; and (3) less than $1,000
were scientifically sampled at 10 percent. We also selectively chose single purchases throughout
the audit based on such characteristics as the vendor description or the nature of the item
purchased. Our sample methodology resulted in a test of 270 transactions, or 17 percent of all
transactions, and $366,180,or about 57 percent of all dollars spent.

We reviewed applicable regulations, policies, and procedures; examined documentation,
management reports, and records; and interviewed officials as deemed necessary. We also
reviewed the monthly management reports on bankcard usage prepared by the Commerce
Bankcard Center. We conducted our fieldwork in May and June of 1999.

We reviewed administrative and accounting internal controls relating to the Center’s use of the
government purchase card, including controls over the physical security and authorized use of
the bankcards, and the approval and recording of purchased items. We found that the Center
needed to improve internal control practices as discussed in the “Findings and
Recommendations” section of this report. As a result, we could not rely on the controls in
developing our audit approach. Consequently, we conducted extensive testing to achieve our
audit objective of determining whether the office complied with applicable regulations.

We relied on computer processed data in conducting our review. We tested the accuracy of the
data by tracing the data to original source documents and by comparing it to the same data in
other documents. Based on our tests, we concluded that the data was sufficiently reliable for use
in meeting our objectives.

We also evaluated the Center’s compliance with laws and regulations applicable to the use of
government bankcards. We identified FAR, Part 13, and the Commerce Acquisition Manual,
Part 13, as the applicable regulations. We found that the office was not in compliance with
certain requirements. The noncompliance was deemed material and is detailed in the “Findings
and Recommendations” section of this report.

We conducted the audit in accordance with generally accepted government auditing standards
and under authority of the Inspector General Act of 1978, as amended, and Department
Organization Order 10-13, dated May 22, 1980, as amended.




                                                 3
U.S. Department of Commerce                                       Audit Report ATL-11860-0-0001
Office of Inspector General                                                         March 2000

FINDINGS AND RECOMMENDATIONS

1.     Internal Controls over Card Use Need to Be Improved

NMFS’s Southeastern Fisheries Science Center is not following appropriate internal control
procedures, including card security and use. Furthermore, the Center did not follow sound
management practices in the ordering and recording of purchased goods. As a result, the Center
is at risk for procurements that are unauthorized, improper, and uneconomical.

A.     Security over bankcards needs improvement

Of the 11 cardholders we interviewed, 6 had their bankcards in a wallet or purse, 3 kept the card
in an unlocked desk and 2 kept the card in an office safe. According to the Commerce
Acquisition Manual, Part 13, Chapter 1, Item 8c.(10), cardholders must “Keep the Purchase Card
in a secure place.” If the bankcard is left in an unlocked desk drawer, cabinet or in a wallet or
purse, there is a risk that the card could be stolen.

B.     Unauthorized card use found

Three cardholders violated Commerce regulations by allowing other employees to use their
bankcard or to sign for purchases ordered by the cardholder. For example, a cardholder at
Panama City placed eight telephone orders for varied merchandise and services but someone
other than the cardholder signed the cardholder’s name to the receipts. Another cardholder at
Panama City let someone else sign for five of his bankcard transactions made by telephone. A
cardholder at Miami let another person use his bankcard to purchase air carrier support services.
The individual using the bankcard was under contract for personal services and was not a NOAA
employee. The Commerce Acquisition Manual, Part 13, Chapter 1, Item 8c.(1), states that
“Cards may not be used by any person other than the person designated on the card.”

C.     Purchases not always preapproved

Procurement Memorandum 95-23, issued by the Department’s Chief Financial Officer on
August 9, 1995, states “Cardholders are now required to obtain prior approval from their
supervisor or cardholder approving official before making any purchase.” Center officials
previously developed a form for preapprovals, NOAA Form 37-900, “Requisition For Supplies
Or Services.” Cardholders generally obtained the necessary prior approval before orders were
placed; however, we found that 49 of the 270 purchase transactions we examined had not been
preapproved.




                                                4
U.S. Department of Commerce                                        Audit Report ATL-11860-0-0001
Office of Inspector General                                                          March 2000

D.     Property transaction forms not completed and property unaccounted for

Our review of accountable and sensitive property purchased with government bankcards
disclosed that cardholders do not always complete the required Commerce Form CD-509,
“Property Transaction Request” or submit a property receipt to the appropriate official.
Commerce Acquisition Manual, Part 13, Chapter 1, Item 16, states, “When purchasing any
personal property at $2,500 or more...the cardholder must forward a Form CD 509, ‘Property
Transaction Request’ or the property receipt to their servicing property office.” This step is
necessary to ensure that the accountable property is recorded in the agency’s inventory.

During our audit, agency officials told us that they could not account for 65 personal property
items totaling approximately $293,000. The majority of the property unaccounted for was
computer equipment. The officials stated that they are researching the documentation and
contacting the individual cardholders in an effort to locate the property.

E.     Records not properly maintained

Most of the bankcard purchase records for fiscal year 1998 were readily available for our review;
however, Center officials could not provide four monthly statements or other documentation to
support purchases made by seven cardholders. Part 13, Chapter 1, Item 19, of the Commerce
Acquisition Manual states, “Purchase card records must be retained for 24 months after the end
of the fiscal year in which the transaction occurred.” From our sample of 270 transactions, we
could not find documentation to support 14 single purchases, or 5 percent of the purchases
included in our sample, for the six cardholders.

F.     Required training not provided

Part 13, Chapter 1, Item 7b.(4), of the Commerce Acquisition Manual states “HCOs shall ensure
cardholders and cardholder approving officials review these procedures and view the training
video once every two years.” Also, Item 7b.(1) of the Manual states, “HCOs should provide
cardholders and cardholder approving officials with information and basic instructions on how to
use the purchase card. HCOs may require cardholders and cardholder approving officials to take
additional training.” Of the 11 cardholders we interviewed, 10 cardholders stated they do not
remember receiving training on the bankcard and one cardholder stated that he had received
training on the bankcard but did not remember when the training occurred. Center officials
stated that they were not aware that cardholders had not received the required training.




                                                5
U.S. Department of Commerce                                        Audit Report ATL-11860-0-0001
Office of Inspector General                                                          March 2000

G.     Inactive cardholders situation should be reassessed

During fiscal year 1998, we found that 10, or 18 percent, of the 56 cardholders did not use their
bankcard. Furthermore, the 10 cardholders had a combined single purchase limit of $28,500 and
a 30-day purchase limit of $57,000. We believe that the number of cardholders is higher than
needed given their purchasing capacity and the administrative burden of maintaining proper
oversight of card use as required by the CAM. The Commerce Acquisition Manual, Part 13,
Chapter 1, Item 8.a., requires that senior Commerce officials ensure that adequate internal
controls are in place and that annual reviews of bankcard activity are conducted. Center officials
should reassess its need for the 10 inactive cardholders since they can obligate federal funds and
do so with little oversight through using the purchase card.

H.     Cardholders not maintaining required purchase card order log

Commerce Acquisition Manual, Part 13, Chapter 1, Item 8.c.(5) requires cardholders to record all
purchases to a Purchase Card Order Log. The log is the cardholder’s record of account for each
purchase card transaction. Without using the log to record all bankcard transactions when made,
the cardholders cannot adequately document, control, and reconcile purchase activity with the
bankcard statement and the approving officials cannot adequately determine whether the
transactions are appropriate. Of the 11 cardholders we interviewed, only 6 kept a Purchase Card
Order Log. As a result, the Center is at risk for unauthorized and improper procurements.

I.     Cardholders not always requesting sales tax exemption

Commerce Acquisition Manual, Part 13, Chapter 1, Item 8.c.(8) requires cardholders to “Always
request a sales tax exemption.” We found that two cardholders failed to obtain the sales tax
exemption on three separate occasions. While the amount involved in the tests was insignificant,
the Center’s approving official needs to enforce the requirement to obtain the sales tax
exemption.

In summary, the Center’s internal control practices do not provide assurance of the physical
security and appropriate use of bankcards. Furthermore, the Center does not consistently follow
sound management practices in the order and recording of purchased goods. As a result, the
office is at risk for procurements that are unauthorized and improper. Corrective action must be
taken to reduce potential waste and abuse of the bankcard authority by program officials.

Recommendation

We recommend that the HCO for NMFS’s Southeastern Fisheries Science Center ensure that
procedures are implemented by the Center to ensure effective internal control procedures for
bankcard usage. We further recommend that the HCO monitor the effectiveness of the internal
control procedures through his/her continuing reviews of the Center’s procurement activity and
ensure that:

                                                6
U.S. Department of Commerce                                         Audit Report ATL-11860-0-0001
Office of Inspector General                                                           March 2000


       l       Bankcards are physically secure.
       l       Bankcards are used only by authorized employees.
       l       All purchases have prior approvals.
       l       Required Property Transaction Request Forms (CD 509) are completed and
               forwarded to the servicing property office and property is properly accounted for.
       l       Monthly statements along with invoices and receipts are properly maintained.
       l       Cardholders receive required training.
       l       The Center reassess its need for inactive cardholders to continue to hold cards.
       l       Cardholders maintain a Purchase Card Ordering Log.
       l       Cardholders always obtain the sales tax exemption.

In addition, we request that the HCO provide our office with the results of his/her efforts to locate
the property that was missing.

NOAA Response

NOAA agreed with all the recommendations made in the draft audit report but requested
clarifying instructions on how to implement the recommendation to ensure that bankcards are
physically secure. NOAA expressed concern that too rigorous a policy may not serve to ease the
acquisition process for cardholders in the field. NOAA stated it will work to improve the
Southeastern Fisheries Science Center Bankcard Program by providing instructions to
cardholders on the physical security of bankcards, authorized usage, prior approval of purchases,
proper use of the CD-509, Property Transaction Reports, training requirements, maintaining a
purchase card order log, and instructions to obtain the sales tax exemption.

In response to the recommendation to ensure that monthly statements along with invoices and
receipts are properly maintained, NOAA stated that it has established a policy to document all
requests for access to files. In addition, NOAA provided a January 2000 report showing one
current cardholder as inactive and stated that it will continue to monitor inactive status. Finally,
NOAA stated that the 65 personal property items cited in the report were found, property records
reconciled and properly reported to the Central Administrative Support Center Facilities and
Logistics Division, and that a system has been put in place to ensure timely submission of the
CD-509s. A copy of NOAA’s response, excluding attachment, is included as Attachment 1.

OIG Comments

We appreciate NOAA’s positive response to provide written instructions to its cardholders and
approving officials and to monitor operations to ensure that effective internal control procedures
are implemented and followed by the Southeastern Fisheries Science Center. NOAA should
provide to the OIG copies of all memorandums issued to ensure that the Center has implemented
the appropriate internal control procedures. The Center should also provide the OIG documents

                                                 7
U.S. Department of Commerce                                         Audit Report ATL-11860-0-0001
Office of Inspector General                                                           March 2000

supporting the proper accounting and reporting of the missing 65 personal property items cited in
the report. All requested information should be provided to the OIG with NOAA’s action plan.

We recognize that cardholders in the field present a special situation but believe the agency can
develop practical procedures that meet the intent of the Commerce Acquisition Manual. This
could include keeping the bankcard in a wallet or purse providing the cardholder maintains
control.

Attachment

cc:    Paul Roberts, Chief Financial Officer and Chief Administrative Officer, NOAA
       Barbara Martin, Chief, Audit and Internal Control Staff Office, NOAA




                                                 8
